No. 20-826
IN THE

Supreme Court of the United States
MIKE BROWN, ACTING WARDEN,
Petitioner,
v.
ERVINE DAVENPORT,
Respondent.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF FOR RESPONDENT

CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

TASHA J. BAHAL
Counsel of Record
REUVEN DASHEVSKY
GARY B. HOWELL-WALTON
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
tasha.bahal@wilmerhale.com

QUESTION PRESENTED
Whether a federal habeas court considering the
harmlessness of an undisputed constitutional violation at
trial may ensure compliance with the limitations of 28
U.S.C. § 2254(d)(1) without engaging in a formal
AEDPA/Chapman analysis, or whether a federal habeas court must always formally apply a separate and
independent Section 2254(d)(1) analysis after finding actual prejudice under Brecht.

(i)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ............................................... i
TABLE OF AUTHORITIES ..........................................vi
INTRODUCTION .............................................................. 1
STATEMENT OF THE CASE ........................................ 4
A. Trial And First Appeal......................................... 4
B. Remand Proceedings And Second Appeal .......................................................................... 6
C. Federal Habeas Proceedings .............................. 9
SUMMARY OF ARGUMENT ....................................... 12
ARGUMENT ..................................................................... 15
I.

A FEDERAL HABEAS COURT MAY ENSURE
COMPLIANCE WITH SECTION 2254(d)(1)’S
LIMITATIONS BY APPLYING BRECHT WITHOUT SEPARATE, FORMAL APPLICATION OF
AEDPA/CHAPMAN .................................................... 15
A. A Federal Habeas Court Need Not Formally Apply AEDPA/Chapman Where
Its Finding Of Actual Prejudice Under
Brecht Complies With AEDPA’s Limitations On Legal And Factual Materials .......... 15
B. A Finding Of Actual Prejudice Under
Brecht Means That A State Court’s Determination That An Error Was Harmless Beyond A Reasonable Doubt Is Objectively Unreasonable Under AEDPA .......... 18

(iii)

iv
TABLE OF CONTENTS—Continued
Page
1.

Brecht’s actual prejudice test imposes a higher barrier to habeas relief than that imposed by the unreasonable-application clause of Section 2254(d)(1) ............................................... 19

2.

The State And Its Amici Misunderstand The Relationship Between
Brecht and AEDPA/Chapman .................. 26

C. Separate, Formal Application Of
AEDPA/Chapman Is Necessary Only
Where The Brecht Analysis Does Not
Comply With AEDPA’s Limitations On
Factual And Legal Materials ............................ 29
II. THE COURT OF APPEALS’ ANALYSIS COMPLIED WITH SECTION 2254(d)(1)’S LIMITATIONS ............................................................................ 31
A. The Court Of Appeals Did Not Impermissibly Rely On Circuit Precedent,
Social-Science Research, Or Dicta.................... 31
B. The Court Of Appeals Did Not Ignore
The State Court’s Rationale .............................. 34
C. The Court Of Appeals Did Not Rely On
Evidence Outside The State-Court Record Or Arguments Not Previously Presented To The State Court ................................ 35
III. SEPARATE, FORMAL APPLICATION OF
AEDPA CONFIRMS THE COURT OF APPEALS’ DETERMINATION ........................................... 37

v
TABLE OF CONTENTS—Continued
Page
A. The Michigan Supreme Court Decision
Was Contrary To Clearly Established
Federal Law As Determined By This
Court ..................................................................... 37
1.

The Michigan Supreme Court decision was contrary to Deck and
Chapman....................................................... 37

2.

The Michigan Supreme Court issued the last reasoned decision .................. 41

B. The Michigan Court Of Appeals Decision Was Contrary To And Involved An
Unreasonable Application Of Federal
Law As Established By This Court ................. 43
CONCLUSION ................................................................. 46

vi
TABLE OF AUTHORITIES
CASES
Page(s)
Brecht v. Abrahamson, 507 U.S. 619 (1993)............ passim
Cavazos v. Smith, 565 U.S. 1 (2011)................................ 29
Chapman v. California, 386 U.S. 18 (1967) ............ passim
Cullen v. Pinholster, 563 U.S. 170 (2011) ...................... 18
Cuozzo Speed Technologies, LLC v. Lee,
136 S. Ct. 2131 (2016) ................................................. 25
Davis v. Ayala, 576 U.S. 257 (2015) ....................... passim
Deck v. Missouri, 544 U.S. 622 (2005) ................... passim
Fry v. Pliler, 551 U.S. 112 (2007) .............. 2, 16, 22, 23, 25
Greene v. Fisher, 565 U.S. 34 (2011) ............................... 42
Harrington v. Richter, 562 U.S. 86 (2011) ............... 22, 40
Holbrook v. Flynn, 475 U.S. 560 (1986) ................ passim
In re Primus, 436 U.S. 412 (1978) ................................... 25
Jackson v. Virginia, 443 U.S. 307 (1979) ....................... 27
Johnson v. Williams, 568 U.S. 289 (2013)...................... 25
Lockyer v. Andrade, 538 U.S. 63 (2003) ......................... 18
Marshall v. Rodgers 569 U.S. 58 (2013) ................... 32, 33
Neder v. United States, 527 U.S. 1 (1999) .......... 20, 22, 32
O’Neal v. McAninch, 513 U.S. 432 (1995) ...................... 21
Parker v. Gladden, 385 U.S. 363 (1966).......................... 36
People v. Johnson, 597 N.W.2d 73 (Mich.
1999) ............................................................................. 11
Renico v. Lett, 559 U.S. 766 (2010) .................................. 29

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Satterwhite v. Texas, 486 U.S. 249 (1988) ................ 20, 28
Shinn v. Kayer, 141 S. Ct. 517 (2020) ....................... 41, 42
Sullivan v. Louisiana, 508 U.S. 275 (1993) ............. 22, 28
United States v. Hasting, 461 U.S. 499
(1983) ...................................................................... 32, 45
Werth v. Bell, 692 F.3d 486 (6th Cir. 2012) ....................... 42
Williams v. Taylor, 529 U.S. 362 (2000) ...... 3, 14, 17, 38, 39
Wilson v. Sellers, 138 S. Ct. 1188 (2018) ............ 18, 40, 43
Yates v. Evatt, 500 U.S. 391 (1991) ................................. 20
Ylst v. Nunnemaker, 501 U.S. 797 (1991) ...................... 42
DOCKETED CASES
Davenport v. MacLaren, No. 14-1012
(W.D. Mich.) ................................................................ 41
Fry v. Pliler, No. 06-5247 (U.S.) ................................. 3, 23
Michigan v. Davenport, No. 306868
(Mich. Ct. App.) .......................................................... 35
STATUTES AND RULES
Antiterrorism and Death Penalty Act of
1996, 28 U.S.C. § 2254 ....................................... passim
S. Ct. R. 24.1 ....................................................................... 37
OTHER AUTHORITIES
Copi, Irving M., et al., Introduction to
Logic (15th ed. 2019).............................................. 24

IN THE

Supreme Court of the United States
No. 20-826
MIKE BROWN, ACTING WARDEN,
Petitioner,
v.
ERVINE DAVENPORT,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF FOR RESPONDENT
INTRODUCTION
Ervine Davenport was visibly shackled at the waist,
wrist, and ankles during his 2008 trial in violation of his
due process rights. As the State concedes (Pet. 25), it is
“uncontroverted that [Mr.] Davenport’s shackling was
‘inherently prejudicial’ and was error,” as this Court
clearly established in Deck v. Missouri, 544 U.S. 622
(2005). The court of appeals found that Mr. Davenport
was actually prejudiced by his unconstitutional shackling and granted Mr. Davenport a conditional writ of habeas corpus pursuant to the Antiterrorism and Death
Penalty Act of 1996, 28 U.S.C. § 2254 (“AEDPA”).
The State does not challenge the court of appeals’
finding of actual prejudice under Brecht v. Abrahamson,
507 U.S. 619 (1993). Instead, it maintains that the court

2
of appeals was required to conduct a separate, formal
analysis under AEDPA, which precludes federal habeas
relief where the state court found an error harmless under Chapman v. California, 386 U.S. 18 (1967), unless
the state court’s harmlessness determination “was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of the United States,” 28 U.S.C.
§ 2254(d)(1), or “was based on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding,” 28 U.S.C. § 2254(d)(2).
This case thus turns on the narrow question of how
a federal habeas court should ensure compliance with
Section 2254(d) when faced with an undisputed violation
of constitutional rights that actually prejudiced the defendant under Brecht. This Court has repeatedly explained that while both Brecht and AEDPA are preconditions of habeas relief, “a federal habeas court need not
‘formal[ly]’ apply both” because “the Brecht test subsumes the limitations imposed by AEDPA.” Davis v.
Ayala, 576 U.S. 257, 270 (2015); see also Fry v. Pliler,
551 U.S. 112, 120 (2007).
Consistent with that precedent and given the logical
relationship between the two standards, the Court
should hold that a federal habeas court may grant relief
without a formal application of AEDPA/Chapman if its
finding of actual prejudice under Brecht drew only on the
legal and factual materials that may permissibly be considered under Section 2254(d). In that situation (like
here), the federal habeas court’s finding of actual prejudice under Brecht complies with the limitations set by
Section 2254(d) and necessarily means that the state
court’s determination of harmlessness beyond a reasonable doubt was an objectively unreasonable application
of Chapman. The State itself has acknowledged this to

3
be true, arguing to this Court in Fry that “when a federal habeas court finds that a constitutional error had a
substantial and injurious effect [i.e., actual prejudice under Brecht], it follows that (to the federal court) the state
court unreasonably applied Chapman (if the state court
did harmless error analysis).” 06-5247 Missouri et al.
Amicus Br. 12-13, 2007 WL 621857, at *12-13 (filed Feb.
22, 2007).
If, however, a federal habeas court’s Brecht analysis
relies on legal or factual materials outside of AEDPA’s
limitations—e.g., if the court relies on evidence presented in a Section 2254(e)(2) evidentiary hearing—the
federal habeas court should then conduct a separate and
formal AEDPA/Chapman analysis before awarding habeas relief. Here, the court of appeals did not transgress
AEDPA’s limits in applying Brecht, so neither the interest in judicial economy nor concerns of comity and federalism would be served by requiring a formal and separate AEDPA/Chapman analysis.
But even if this Court were to conclude that formal
application of AEDPA/Chapman is always required in
every case, the result here would be the same. The state
court’s finding of harmlessness beyond a reasonable
doubt was “contrary to” and an “unreasonable application of” clearly established federal law. The Michigan
Supreme Court did not apply Chapman, but instead applied a different, erroneous standard in purporting to
evaluate harmlessness. Such a decision merits no deference. See Williams v. Taylor, 529 U.S. 362, 405 (2000).
Contradicting its prior position, the State suggests
that the opinion of the Michigan Court of Appeals, and
not the state supreme court, should be considered the
last reasoned state-court decision. But the Michigan Supreme Court explicitly rejected the intermediate

4
appellate court’s approach. The State’s contention that
this Court should defer to an analysis that the State’s
highest court expressly rejected is really no deference at
all.
This Court should affirm the court of appeals’ grant
of habeas relief.
STATEMENT OF THE CASE
A. Trial And First Appeal
In July 2008, the State of Michigan tried Mr. Davenport before a jury on a charge of open murder (allowing
the jury to consider both first- and second-degree murder) for the 2007 death of Annette White. During trial,
Mr. Davenport was visibly shackled with a waist chain,
a wrist shackle on his left hand, and ankle shackles. Pet.
App. 2a, 5a. The trial court made no on-the-record finding to justify the shackling. Pet. App. 5a.
The general circumstances surrounding the night of
Ms. White’s death were largely undisputed and corroborated by witness testimony: Mr. Davenport and Ms.
White were together on the day of her death; Ms. White
was intoxicated, having smoked crack cocaine and consumed alcohol; and Ms. White was agitated. Pet. App.
3a-5a. There was a struggle between Ms. White and Mr.
Davenport while they were driving alone in a car, and
Mr. Davenport caused Ms. White’s death during this
struggle. Id.
Mr. Davenport testified at trial that he acted in selfdefense after Ms. White attacked him while he was driving. Pet. App. 3a, 5a. Mr. Davenport explained that Ms.
White repeatedly tried to grab the steering wheel and,
each time, Mr. Davenport pushed her back. Pet. App.
3a. She then started yelling and kicking and pulled out
a boxcutter, which she swung at Mr. Davenport, cutting

5
his arm. Id. Mr. Davenport testified that he was afraid
of the boxcutter and was simultaneously trying to avoid
oncoming traffic. Id. As he continued to drive, Mr. Davenport pinned Ms. White against the side of the car with
his hand extended against her neck. Id. As he was about
to let up his hand, she scratched him on the face, and he
“pinned her back up against the other side of the car.”
Id. At some point, he realized she was no longer struggling and had stopped breathing. Id.
As the prosecution conceded, the “only real issue”
for the jury was whether Mr. Davenport intentionally
killed Ms. White with premeditation and deliberation
(first-degree murder), intended to kill Ms. White but
without premeditation and deliberation (second-degree
murder), or acted in self-defense. Pet. App. 5a. As evidence of premeditation and deliberation, the prosecution
relied primarily on the testimony of the forensic
pathologist who conducted Ms. White’s autopsy. Pet.
App. 4a-5a. The pathologist testified that the cause of
death was strangulation and opined that the internal injuries to Ms. White’s neck were “more consistent with
choking than … broad pressure there.” Id. In closing,
the prosecution argued for premeditation and deliberation based on the amount of time that strangulation
would have taken. Pet. App. 31a. After deliberating for
six hours over the course of two days, the jury found Mr.
Davenport guilty of first-degree murder. Pet. App. 5a.
Mr. Davenport was sentenced to mandatory life imprisonment without the possibility of parole.
On direct appeal, Mr. Davenport argued that his extensive shackling—at the waist, one wrist, and his ankles—in full view of the jury, without any justification
on the record, violated the Due Process Clause under
Deck v. Missouri, 544 U.S. 622 (2005). In Deck, this
Court held that “the law has long forbidden routine use

6
of visible shackles during the guilt phase; it permits a
State to shackle a criminal defendant only in the presence of a special need.” Id. at 626. The Michigan Supreme Court remanded the case to the trial court for an
evidentiary hearing to determine whether the jurors
saw Mr. Davenport’s shackles and, if they did, whether
this due process violation was harmless beyond a reasonable doubt. Pet. App. 6a.
B. Remand Proceedings And Second Appeal
On remand, the trial court held an evidentiary hearing in which all twelve jurors testified. Pet. App. 6a-7a.
The hearing established—and it remains uncontested—
that Mr. Davenport’s shackles were visible to the jury.
Some of the jurors testified that they observed the
shackles during voir dire, while other jurors said they
observed the shackles—and discussed them—during
Mr. Davenport’s eight-day trial. Some of these jurors
saw the shackles on Mr. Davenport’s hand, some jurors
observed the waist chain, some jurors observed the ankle shackles, and some jurors observed more than one of
the restraints. See, e.g., JA709-710 (Juror Rooseboom);
JA730-731, 735-737, 739 (Juror Jankord); JA744-746,
752-753 (Juror Lewis); JA784-790, 793-794 (Juror
Vanderveen); JA805-807, 809 (Juror Whately).
In addition to the jurors who saw Mr. Davenport in
shackles, at least two other jurors heard comments from
other jurors about the restraints. Pet. App. 7a; JA744;
JA758-759; JA767-771; JA784-785, JA788-790. The jurors discussed the shackles in the jury box, the jury
room, at lunch, and in the hallway. JA747; JA752-753;
JA758-759; JA773-774; JA807; JA852.
In total, although three years had passed since the
trial, five jurors testified that they recalled seeing Mr.

7
Davenport’s waist chain, handcuffs, or ankle shackles
during jury selection or trial, and two additional jurors
testified that they heard other jurors commenting about
the restraints. Pet. App. 7a.
Several jurors expressed their view that they believed Mr. Davenport to be dangerous—a belief that was
borne out by the shackles. Juror Jankord made this
clear:
Q. And what did you think the purpose was for
him to be shackled and to have [deputies] in the
courtroom?
A. Security.
Q. Did you think that he might be dangerous?
A. Absolutely.
JA738.
Similarly, when Juror Vanderveen saw Mr. Davenport in shackles, he assumed that Mr. Davenport might
be dangerous and felt “safer” knowing Mr. Davenport
was restrained. JA793-795; see Pet. App. 7a. But when
asked, the jurors who saw or heard about Mr. Davenport’s shackles also testified that the shackling did not
affect their deliberations. Pet. App. 7a.
The trial court found that, although the jurors observed the shackles at trial, the prosecution had proved
beyond a reasonable doubt that Mr. Davenport’s shackles did not affect the verdict. Pet. App. 7a. In so holding,
the trial court relied solely on the jurors’ testimony that
Mr. Davenport’s shackling was not discussed during deliberations and did not affect their verdict. Pet. App. 7a8a; JA860-863 (“[t]he Prosecution has met its burden on
this issue through the testimony of the jurors”). The
court did not cite or discuss any other evidence,

8
including any trial evidence, to support its harmless-error finding.
The Michigan Court of Appeals affirmed, holding
that the “trial court properly found that the prosecution
met its burden of proving beyond a reasonable doubt
that the error did not affect the jury’s verdict.” Pet.
App. 95a-99a. The court based its conclusion on—and
devoted nearly all of its three-page opinion to considering—the juror testimony. Id.; see also Pet. App. 99a
(opining that “it was proper for the jurors to testify regarding how viewing the shackles affected their deliberations”).
The Michigan Supreme Court denied leave to appeal. But in doing so, it rejected the Michigan Court of
Appeals’ analysis. Pet. App. 93a-94a. The Michigan Supreme Court held that the state appellate court’s reliance on juror testimony was error under Holbrook v.
Flynn, 475 U.S. 560 (1986). In Holbrook, this Court considered whether certain courtroom security procedures
were so inherently prejudicial as to violate due process,
and in holding that they were, the Court determined
that “little stock need be placed in jurors’ claims to the
contrary,” because “jurors will not necessarily be fully
conscious of the effect it will have on their attitude toward the accused.” Id. at 570; Pet. App. 93a-94a. Having
rejected the intermediate court’s reasoning, the state
supreme court supplied its own reasoned explanation for
rejecting Mr. Davenport’s claim: his unconstitutional
shackling was harmless because, “[g]iven the substantial
evidence of guilt presented at trial, [the court could not]
conclude that there was an unacceptable risk of impermissible factors coming into play.” Pet. App. 94a (applying Holbrook, 475 U.S. at 570).

9
C. Federal Habeas Proceedings
Mr. Davenport filed a habeas petition under 28
U.S.C. § 2254, claiming that his visible shackling during
trial violated his due process rights. The district court
denied relief. Pet. App. 71a-76a. The U.S. Court of Appeals for the Sixth Circuit reversed and granted a conditional writ of habeas corpus, finding that Mr. Davenport
was unconstitutionally shackled during trial and that the
shackling was not harmless. Pet. App. 1a-38a.
The parties did not dispute that Mr. Davenport’s
visible shackling, with no on-the-record justification, violated the Due Process Clause under Deck. Pet. App.
21a. Such shackling is “inherently prejudicial,” in part
because it “undermines the presumption of innocence
and the related fairness of the factfinding process” by
“suggest[ing] to the jury that the justice system itself
sees a need to separate a defendant from the community
at large.” Pet. App. 20a-21a (quoting Deck, 544 U.S. at
630, 635). The only dispute was whether that error was
harmless under the standards applicable on collateral review. Pet. App. 21a.
The court of appeals discussed at length the relationship between Brecht and AEDPA. See Pet. App. 9a-20a,
22a-23a, 25a-27a. Under Brecht, an error must be disregarded as harmless on collateral review unless it resulted in “actual prejudice,” meaning it had a “substantial and injurious effect or influence in determining the
jury’s verdict.” Brecht, 507 U.S. at 637. This requires
more than a “reasonable possibility” that the error contributed to the verdict. Id. Conversely, AEDPA provides that a federal court may not grant habeas relief to
a state prisoner on a claim that was adjudicated on the
merits in state court unless the state court’s decision was
“contrary to, or involved an unreasonable application of,

10
clearly established Federal law, as determined by the
Supreme Court of the United States,” or was “based on
an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d)(1)-(2).
Drawing on this Court’s decision in Davis v. Ayala,
576 U.S. 257 (2015), the court of appeals first held that
“both Brecht and AEDPA must be satisfied” before relief may be granted. Pet. App. 17a. The court then concluded that a federal habeas court may find both standards satisfied by applying the more stringent Brecht test
because, where a petitioner can demonstrate actual prejudice under Brecht, a state-court finding of harmlessness beyond a reasonable doubt—“even though insulated by AEDPA deference”—is “necessarily objectively unreasonable.” Id.; see also Pet. App. 13a (“where
a habeas petitioner can succeed under the more demanding Brecht test, the state court’s ‘harmlessness determination itself is unreasonable,’ which shows that both
tests are satisfied” (quoting Ayala, 576 U.S. at 269));
Pet. App. 17a-18a (“The tests of Brecht and
AEDPA/Chapman … both seek traces of the same poison but Brecht’s test covers both because it requires the
petitioner to show enough poison to be fatal under either
test.”). Brecht thus “subsumes the limitations imposed
by AEDPA,” and a “federal habeas court need not ‘formal[ly]’ apply both Brecht and “AEDPA/Chapman.”
Pet. App. 14a (quoting Ayala, 576 U.S. at 268, 270).
Applying Brecht, the court of appeals found that Mr.
Davenport’s visible shackling resulted in actual prejudice because “the State ha[d] failed to carry its burden
to show that the shackles did not have a ‘substantial and
injurious effect or influence in determining the jury’s
verdict.’” Pet. App. 38a (quoting Brecht, 507 U.S. at
637). In reaching that conclusion, the court examined

11
the trial evidence at length, emphasizing the “closeness
of the case” on the critical issue of intent. Pet. App. 27a33a. To convict on first-degree murder under Michigan
law, the prosecution had to prove premeditation and deliberation. Pet. App. 29a-30a. But the “only evidence of
premeditation and deliberation the prosecution pointed
to in its closing was the time that strangulation would
have taken,” and “under Michigan law, evidence of manual strangulation alone is not enough to prove premeditation.” Pet. App. 31a (citing People v. Johnson, 597
N.W.2d 73, 79 (Mich. 1999)). The court of appeals concluded that “[t]he evidence of premeditation and deliberation was therefore not overwhelming”—a conclusion
bolstered by the fact that the jury had to deliberate for
approximately six hours over the course of two days
even though this was a “simple[]” case in which the “only
disputed fact at trial” was Mr. Davenport’s state of mind.
Pet. App. 32a. The strength of the evidence therefore
did not refute that Mr. Davenport’s unconstitutional and
inherently prejudicial shackling affected the jury’s verdict. Pet. App. 33a.
The court of appeals also considered and rejected
the State’s reliance on the jurors’ testimony, three years
after trial, that Mr. Davenport’s shackling did not affect
their verdict. Pet. App. 34a-38a. As the court explained,
“the Supreme Court has made clear that jurors’ subjective testimony about the effect shackling had on them
bears little weight.” Pet. App. 34a (citing Holbrook, 475
U.S. at 570); see also Pet. App. 35a (“it was the Supreme
Court in Holbrook that stated the danger of relying on
after-the-fact juror conclusions regarding ‘inherently
prejudicial’ actions such as shackling because jurors may
not be fully aware” of how such measures “[a]ffect ‘their
attitude toward the accused’” (quoting Holbrook, 475
U.S. at 570)). If anything, the court explained, the

12
jurors’ testimony pointed in the opposite direction: that
most of the jurors “still remembered,” three years after
the fact, “that they either saw [Mr. Davenport’s] restraints or heard another juror remark on his shackles
… suggests the shackles made an impression.” Pet. App.
35a. Moreover, “several jurors” expressly testified that
viewing the shackles led them to conclude that Mr. Davenport was “dangerous.” Id. The shackling thus “‘inevitably undermine[d] the jury’s ability to weigh accurately all relevant considerations’” in precisely the manner this Court foresaw and clearly established in Deck.
Pet. App. 37a (quoting Deck, 544 U.S. at 633).
The court of appeals therefore concluded that the
shackles “branded [Mr.] Davenport as having a violent
nature in a case where the crucial point of contention was
whether he engaged in deliberate and premeditated
murder.” Pet. App. 38a. As a result, the court of appeals
concluded that Mr. Davenport’s unconstitutional shackling was not harmless under Brecht and granted habeas
relief. Id.
The State sought rehearing en banc, which was denied. Pet. App. 101a-137a. This Court granted certiorari.
SUMMARY OF ARGUMENT
The State, Mr. Davenport, and the court of appeals
all agree that a federal habeas petitioner must satisfy
both Brecht v. Abrahamson, 507 U.S. 619 (1993), and 28
U.S.C. § 2254(d). Here, the court of appeals found—and
the State does not contest—that Mr. Davenport was actually prejudiced under Brecht by his unconstitutional
shackling. See Pet. App. 2a-38a. The court of appeals
then assured itself that its finding of actual prejudice under Brecht necessarily meant that the state court’s

13
finding of harmlessness beyond a reasonable doubt was
“objectively unreasonable” under AEDPA. Pet. App.
17a (citing Ayala v. Davis, 576 U.S. 257, 268-270 (2015));
see also Pet. App. 11a, 13a-14a, 17a-18a, 22a, 25a. Because the court of appeals’ Brecht analysis drew only on
the legal and factual materials that may permissibly be
considered under Section 2254(d), there was no need for
the court to formally conduct a separate AEDPA analysis, and the decision should be affirmed.
As this Court has explained, there is no need to “‘formal[ly]’ apply both” Brecht’s actual-prejudice standard
and AEDPA’s inquiry into the reasonableness of the
state court’s harmlessness determination because “the
Brecht test subsumes the limitations imposed by
AEDPA.” Ayala, 576 U.S. at 268, 270. Rather, where a
federal habeas court conducts a Brecht analysis and finds
actual prejudice based only on the legal and factual materials that a court may permissibly consider under
AEDPA, the Brecht conclusion of actual prejudice—i.e.,
that there is more than a reasonable possibility that the
error was harmful—necessarily means that the state
court’s finding of harmlessness beyond a reasonable
doubt was objectively unreasonable. Requiring a superfluous formal application of AEDPA/Chapman in such a
case would burden the court and the interest in judicial
economy without any offsetting benefit to the State’s interests in finality. If the finding of actual prejudice under Brecht, however, rests on legal or factual materials
outside of AEDPA’s proscriptions, then the federal habeas court should conduct a separate and formal
AEDPA inquiry before granting relief.
In this case, the court of appeals’ finding of actual
prejudice was based only on materials permitted under
Section 2254(d). The court relied on the legal standards
established in Deck v. Missouri, 544 U.S. 622 (2005), and

14
Chapman v. California, 386 U.S. 18 (1967), while citing
circuit precedent and other materials only cumulatively
to confirm its reliance on Supreme Court precedents
that were already clearly established governing law.
The court of appeals also considered at length the only
two grounds relied on by the state court—the trial evidence and the juror testimony. The court did not consider new evidence outside the trial record, did not rely
on arguments not previously advanced before the state
court, and did not disregard the state court’s analysis.
In any event, even if this Court were to agree with
the State that a federal habeas court is always obliged to
formally apply Section 2254(d) in addition to finding actual prejudice under Brecht, Mr. Davenport would still
be entitled to relief. The last reasoned decision from the
Michigan Supreme Court was “contrary to” clearly established federal law as determined by this Court. That
court did not apply Chapman. Instead, the Michigan Supreme Court applied a different, erroneous standard in
purporting to evaluate harmlessness, and a state court’s
application of a standard that contradicts the governing
law as established by this Court merits no deference under AEDPA. See Williams v. Taylor, 529 U.S. 362, 405
(2000).
The State’s response—that the state supreme
court’s decision should be disregarded in favor of the intermediate appellate court’s decision—contradicts the
State’s position below and reflects a perverse concept of
deference. The Michigan Supreme Court rejected the
intermediate appellate court’s analysis as erroneous; indeed, it specifically admonished the lower court for relying on juror testimony to establish harmless error. Pet.
App. 93a. It would make no sense for this Court to defer
to an intermediate appellate court’s rationale that the
State’s highest court expressly rejected.

15
Moreover, even the lower court opinion of the Michigan Court of Appeals was “contrary to, or involved an
unreasonable application of, clearly established Federal
law.” As the Michigan Supreme Court found, the Michigan Court of Appeals decision was contrary to Holbrook
v. Flynn, 475 U.S. 560 (1986), because the court relied
nearly exclusively on jurors’ testimony regarding the
prejudicial effect of seeing Mr. Davenport in shackles.
And it was objectively unreasonable to find the error
harmless in light of the trial record given the scarce evidence of premeditation and deliberation.
Because the federal court of appeals did not disregard AEDPA or transgress its limitations, the court was
correct to conclude that its finding of actual prejudice
necessarily meant that the state court’s finding of harmlessness beyond a reasonable doubt was objectively unreasonable. Indeed, formal application of Section
2254(d) to this case confirms that Mr. Davenport is entitled to habeas relief. The court of appeals’ grant of a conditional writ of habeas should be affirmed.
ARGUMENT
I.

A FEDERAL HABEAS COURT MAY ENSURE COMPLIANCE
WITH SECTION 2254(d)(1)’S LIMITATIONS BY APPLYING BRECHT WITHOUT SEPARATE, FORMAL APPLICATION OF AEDPA/CHAPMAN
A. A Federal Habeas Court Need Not Formally
Apply AEDPA/Chapman Where Its Finding Of
Actual Prejudice Under Brecht Complies With
AEDPA’s Limitations On Legal And Factual
Materials

Two standards set forth preconditions for habeas relief where the harmlessness of an undisputed constitutional violation at trial was previously adjudicated on the

16
merits in state court: (1) Brecht, which limits habeas relief to situations in which a constitutional violation at
trial resulted in “actual prejudice,” Brecht v. Abrahamson, 507 U.S. 619 (1993); and (2) AEDPA/Chapman,
which precludes federal habeas relief unless the state
court’s determination of harmlessness was “contrary to,
or involved an unreasonable application of” Chapman v.
California, 386 U.S. 18 (1967) (requiring reversal of a
conviction unless prosecution proved constitutional violation was harmless beyond a reasonable doubt).1
While each standard must be satisfied, this Court
has repeatedly stated that “a federal habeas court need
not ‘formal[ly]’ apply both Brecht and ‘AEDPA/Chapman.’” Davis v. Ayala, 576 U.S. 257, 268 (2015); see also
Fry v. Pliler, 551 U.S. 112, 120 (2007). Most recently, in
Ayala, this Court explained that AEDPA “sets forth a
precondition to the grant of habeas relief,” but that applying Brecht “subsumes” AEDPA’s requirements because a habeas petitioner who shows “actual prejudice”
under Brecht’s stringent test necessarily demonstrates
that no fairminded jurist could find the state court’s
harmlessness determination reasonable. 576 U.S. at 268,
270.
Although this Court has not previously explained
how a federal habeas court may assure compliance with
Section 2254(d)(1)’s limitations without formally applying AEDPA/Chapman, its precedent points the way.
After finding that a constitutional violation resulted in
actual prejudice under Brecht, a federal habeas court
may grant relief without further inquiry if its Brecht
1

Section 2254(d)(2) additionally allows relief where the statecourt decision “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2). That provision is not at issue here.

17
analysis relied only on the legal and factual materials allowed under Section 2254(d)(1). In that situation, the
federal court’s finding of actual prejudice under Brecht
necessarily means that a state court’s finding of harmlessness beyond a reasonable doubt was an objectively
unreasonable application of Chapman and complies with
the limitations set by Section 2254(d)(1). On the other
hand, if a federal court’s Brecht analysis deviates from
Section 2254(d)(1)’s limitations on legal and factual materials—e.g., if the court relies on evidence presented at
a Section 2254(e)(2) hearing—the federal habeas court
should then conduct a separate and formal
AEDPA/Chapman analysis before awarding habeas relief.
This approach takes account of the two ways that
Section 2254(d)(1) limits habeas relief. First, Section
2254(d)(1) limits relief by requiring the federal court to
ask a particular question in conducting the
AEDPA/Chapman inquiry. A federal habeas court does
not engage in a direct Chapman analysis, asking
whether the prosecution proved harmlessness beyond a
reasonable doubt, because mere disagreement on that
question does not warrant habeas relief. Instead, the
federal habeas court asks whether the state court “applie[d] a rule that contradicts the governing law set
forth” by this Court or if the state court “unreasonably
applie[d] [the correct rule] to the facts of the particular
state prisoner’s case.” Williams v. Taylor, 529 U.S. 362,
405-407 (2000). Section 2254(d)(1) limits habeas relief to
instances in which the state court applied a harmless-error rule that contradicts Chapman or applied Chapman
in an unobjectively unreasonable manner.
Second, Section 2254(d)(1) limits the legal and factual materials the federal court may consider in making
this determination.
For example, the “clearly

18
established” federal law that guides the Section
2254(d)(1) inquiry is set by this Court’s holdings—not
dicta or lower-court holdings—that had been issued at
the time of the state-court decision. See Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003). Similarly, a Section
2254(d)(1) inquiry “is limited to the record that was before the state court that adjudicated the claim on the
merits.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
Section 2254(d)(1) also requires the federal court to consider the “‘particular reasons—both legal and factual—
why state courts rejected a state prisoner’s federal
claims,’” if the state court supplied a rationale. Wilson
v. Sellers, 138 S. Ct. 1188, 1191-1192 (2018).
In the harmless-error context, as discussed further
below, it will not always be necessary for the federal habeas court to conduct a separate, formal AEDPA/Chapman analysis to assure compliance with both categories
of protections. A finding of actual prejudice under
Brecht necessarily means that the state court’s harmlessness determination was unreasonable, satisfying
AEDPA’s first limitation. Therefore, as long as the
Brecht determination did not transgress AEDPA’s second limitation by considering legal or factual materials
outside the bounds of a Section 2254(d)(1) inquiry, it
would make no sense as a matter of judicial efficiency to
require federal courts to formally perform that additional inquiry.
B. A Finding Of Actual Prejudice Under Brecht
Means That A State Court’s Determination
That An Error Was Harmless Beyond A Reasonable Doubt Is Objectively Unreasonable
Under AEDPA
It is more difficult for a habeas petitioner to obtain
relief under Brecht’s actual prejudice standard than

19
AEDPA/Chapman’s unreasonable-application clause—
so much so that a state-court determination of harmlessness beyond a reasonable doubt is necessarily objectively unreasonable if the constitutional error resulted
in actual prejudice under Brecht. For this reason, a federal habeas court need not formally apply
AEDPA/Chapman after finding actual prejudice under
Brecht (assuming that the Brecht determination complied with Section 2254(d)(1)’s limitations on factual and
legal materials). The State’s and its amici’s efforts to
challenge the relationship between Brecht and
AEDPA/Chapman contradict the plain meaning of what
is required by the two tests, this Court’s precedent, and
the State’s own prior position before this Court.
1. Brecht’s actual prejudice test imposes a
higher barrier to habeas relief than that
imposed by the unreasonable-application
clause of Section 2254(d)(1)
In Brecht, this Court considered the proper standard for determining the harmlessness of a constitutional
violation at trial on habeas review. The Court had previously established, in Chapman, that constitutional violations at trial require reversal on direct review unless
the prosecution can prove harmlessness beyond a reasonable doubt. 386 U.S. at 24. The Chapman standard
is defendant-friendly, allowing for a reviewing court to
uphold a conviction in the face of constitutional error
only if there is no “‘reasonable possibility’ that trial error
contributed to the verdict.” Brecht, 507 U.S. at 637
(quoting Chapman, 386 U.S. at 24). This means that if,
after “conduct[ing] a thorough examination of the record,” a reviewing “court cannot conclude beyond a reasonable doubt that the jury verdict would have been the
same absent the error … it should not find the error

20
harmless.” Neder v. United States, 527 U.S. 1, 19 (1999).
This requires a court “[to] ask[] whether the record contains evidence that could rationally lead to a contrary
finding” and to find the error harmless only if “the answer to that question is ‘no.’” Id.; see also Satterwhite v.
Texas, 486 U.S. 249, 258-259 (1988) (“The question, however, is not whether the legally admitted evidence was
sufficient to support the [verdict].”); Yates v. Evatt, 500
U.S. 391, 404 (1991) (“To satisfy Chapman’s reasonabledoubt standard, it will not be enough that the jury considered evidence from which it could have come to the
verdict without reliance on the [error].”).
Although the Court had previously suggested that
Chapman might apply on both direct and collateral review, the Court in Brecht clarified that principles of finality, comity, and federalism called for a more stringent
standard on collateral review. Brecht, 507 U.S. at 635
(“The reason most frequently advanced in our cases for
distinguishing between direct and collateral review is
the State’s interest in the finality of convictions that
have survived direct review within the state court system. We have also spoken of comity and federalism.” (citations and quotation marks omitted)).
The Court in Brecht explained that applying Chapman’s defendant-friendly inquiry on habeas review
would undermine the presumptive correctness and finality of state-court decisions:
Overturning final and presumptively correct
convictions on collateral review because the
state cannot prove that an error is harmless under Chapman undermines the state’s interest in
finality and infringes upon their sovereignty
over criminal matters. Moreover, granting habeas relief merely because there is a “reasonable

21
possibility” that trial error contributed to the
verdict is at odds with the historic meaning of
habeas corpus—to afford relief to those whom
society has “grievously wronged.”
507 U.S. at 637 (citations omitted). Thus, to preserve
state-court decisions from unnecessary collateral attack,
this Court adopted a more stringent standard.
The Brecht standard limits habeas relief to situations in which an error resulted in “actual prejudice.”
Brecht, 507 U.S. at 637; see also Ayala, 576 U.S. at 267.
This means that “relief is proper only if the federal court
has ‘grave doubt about whether a trial error of federal
law had substantial and injurious effect or influence in
determining the jury’s verdict.’” Ayala, 576 U.S. at 267268 (quoting O’Neal v. McAninch, 513 U.S. 432, 436
(1995) (quotation marks omitted)). Significantly, the
grave doubt required under Brecht is not doubt as to
whether an error is harmless beyond a reasonable doubt,
it is doubt as to whether the error actually prejudiced
the defendant. As explained by this Court, this means
that there must be “more than a ‘reasonable possibility’
that the error was harmful.” Ayala, 576 U.S. at 268
(quoting Brecht, 507 U.S. at 637).
The unreasonable-application clause of Section
2254(d)(1), on the other hand, requires a federal court to
find that the state court’s decision “involved an unreasonable application of … clearly established Federal law,
as determined by the Supreme Court.” 28 U.S.C.
2254(d)(1); see also Ayala, 576 U.S. at 268-269. Thus,
where the state court determined that a trial error was
harmless under Chapman, a habeas court may not grant
relief under this clause unless it determines that no fairminded jurist could agree with the state court’s conclusion that the prosecution proved that the error was

22
harmless beyond a reasonable doubt. Ayala, 576 U.S. at
269-270 (citing Harrington v. Richter, 562 U.S. 86, 101,
103 (2011)).
Examining what is required by Brecht and
AEDPA/Chapman reveals a clear relationship. By definition, if there is more than a “‘reasonable possibility’”
that the error was in fact harmful (as Brecht requires,
507 U.S. at 637), then no fairminded jurist could agree
with the state court’s finding that the prosecution
proved that the error was harmless beyond a reasonable
doubt. As discussed above, Chapman requires a court
to grant relief on direct review if the record evidence
could rationally lead to a finding that the error affected
the verdict. See, e.g., Neder, 527 U.S. at 19; Sullivan v.
Louisiana, 508 U.S. 275, 279 (1993) (“The [Chapman] inquiry, in other words, is not whether, in a trial that occurred without the error, a guilty verdict would surely
have been rendered, but whether the guilty verdict actually rendered in this trial was surely unattributable to
the error.”). A finding of actual prejudice under Brecht
(i.e., more than a reasonable possibility that the error affected the verdict), precludes the reasonableness of any
determination by the state court that the prosecution
proved beyond a reasonable doubt that the error did not
affect the verdict.
This understanding of the relationship between
Brecht and AEDPA/Chapman reflects this Court’s own
statements in Fry and Davis. In Fry, the Court considered whether AEDPA supplanted the Brecht standard.
The Court held that it did not, confirming the vitality of
both tests but recognizing that there is “no sense to require formal application of both tests.” Fry, 551 U.S. at
119-120. The Court based this conclusion on the fact that
Brecht imposes a higher bar to habeas relief than
AEDPA/Chapman:

23
Given our frequent recognition that AEDPA
limited rather than expanded the availability of
habeas relief, it is implausible that, without saying so, AEDPA replaced the Brecht standard of
“actual prejudice,” with the more liberal
AEDPA/Chapman standard which requires
only that the state court’s harmless-beyond-areasonable-doubt determination be unreasonable. That said, it certainly makes no sense to require formal application of both tests (AEDPA/
Chapman and Brecht) when the latter obviously
subsumes the former.
Id.
Notably, in Fry, the State of Michigan, along with 20
other States (many of which also appear as amici in this
case), submitted an amicus brief in which it recognized
that satisfying Brecht’s actual-prejudice test necessarily
means that the unreasonable-application clause of Section 2254(d)(1) is satisfied as well:
To be sure, Brecht analysis and reasonableness
review of a state court’s Chapman analysis can
overlap. For instance, when a federal habeas
court finds that a constitutional error had a substantial and injurious effect, it follows that (to
the federal court) the state court unreasonably
applied Chapman (if the state court did harmless error analysis).
No. 06-5247 Missouri et al. Amicus Br. 12-13, 2007 WL
621857, at *12-13 (filed Feb. 22, 2007). The States were
presumably content to acknowledge this point at the
time—in contrast to their position now—because the obsolescence of Brecht would have lowered the bar for habeas relief for state prisoners.

24
Subsequently, in Ayala, this Court explained that
“[a habeas petitioner] must show that he was actually
prejudiced by [the error], a standard that he necessarily
cannot satisfy if fairminded jurists could agree with the
[state-court] decision that [the error] met the Chapman
standard of harmlessness.” 576 U.S. at 270. In other
words, if fairminded jurists could agree with the state
court’s application of Chapman (i.e., AEDPA/Chapman
is not satisfied), then the error did not result in actual
prejudice (i.e., Brecht is not satisfied). This also means
that if the error did result in actual prejudice (i.e., Brecht
is satisfied), then no fairminded jurist could agree with
the state court’s application of Chapman (i.e.,
AEDPA/Chapman is satisfied).2
Notably, while the Court in Ayala was divided over
whether habeas relief was warranted under Brecht and
AEDPA/Chapman, the logical relationship between
Brecht and AEDPA/Chapman was a point of unanimous
agreement. As noted by Justice Sotomayor in dissent:
My disagreement with the Court does not stem
from its discussion of the applicable standard of
2

The Court’s statement in Ayala that a habeas petitioner
“necessarily cannot satisfy” Brecht if “fairminded jurists could
agree with the [state-court] decision that [the error] met the Chapman standard of harmlessness,” 576 U.S. at 270—i.e., if
AEDPA/Chapman is not satisfied, then Brecht is not satisfied—
can be expressed in symbolic-logic notation as: if ~A, then ~B. The
logical equivalent of this statement, under the rule of transposition
in the discipline of formal logic is: If Brecht is satisfied, then
AEDPA/Chapman is necessarily satisfied (or, if B, then A). See
Copi et al., Introduction to Logic 357 (15th ed. 2019) (“We know that
if any conditional statement is true, then if its consequent is false its
antecedent must also be false. Therefore, any conditional statement
is logically equivalent to the conditional statement asserting that
the negation of its consequent implies the negation of its antecedent.”).

25
review, which simply restates the holding of
Fry. … Nothing in the Court’s opinion today
calls into question this aspect of Fry’s holding.
If a trial error is prejudicial under Brecht’s
standard, a state court’s determination that the
error was harmless beyond a reasonable doubt
is necessarily unreasonable.
576 U.S. at 291-292 (Sotomayor, J., dissenting) (citation
omitted).3
Finally, the State and its amici continue to identify
no cases in which a habeas court has found Brecht to be
satisfied but then denied relief under AEDPA/Chapman, in contrast to the numerous cases in which courts
applying both standards have found them both to be satisfied.
This practical experience under the two
3

Further underscoring the Court’s agreement on this point,
the majority opinions in both Fry and Ayala state that Brecht “subsumes” AEDPA’s limitations. Ayala, 576 U.S. at 270; Fry, 551 U.S.
at 120. The Court has frequently used that term to describe a situation in which a more stringent standard or inquiry may be relied
upon to satisfy a more lenient standard without formally applying
both. See Johnson v. Williams, 568 U.S. 289, 301-302 (2013) (“To be
sure, if the state-law rule subsumes the federal standard—that is, if
it is at least as protective as the federal standard—then the federal
claim may be regarded as having been adjudicated on the merits.”);
In re Primus, 436 U.S. 412, 426-427 n.18 (1978) (“In the discussion
that follows, we do not treat separately the two Disciplinary Rules
upon which appellant’s violation was based. Since DR 2-103(D)(5)
was held by the court below to proscribe in a narrower fashion the
same conduct as DR 2-104(A)(5), a determination of unconstitutionality as to the former would subsume the latter.” (citation omitted));
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2153 (2016) (Alito,
J., concurring) (“Most notably, once the Patent Office issues its final
written decision, the probabilistic question whether a challenge is
‘reasonabl[y] likel[y]’ to prevail on the merits will be subsumed by
the ultimate question whether the challenger should in fact prevail.”
(brackets in original) (citation omitted)).

26
standards confirms what common sense dictates: that a
finding of actual prejudice under Brecht (assuming it
complies with AEDPA’s limits on the legal and factual
materials to be considered) necessarily establishes that
a state court’s finding of harmlessness under Chapman
is objectively unreasonable.
2. The State and its amici misunderstand the
relationship
between
Brecht
and
AEDPA/Chapman
The State attempts to muddy the relationship between these two standards by characterizing
AEDPA/Chapman as deferential and Brecht as de novo
review. This assertion, however, reflects a fundamental
misunderstanding of the deference owed to state courts.
Deference is not achieved through the blind placement
of a thumb on the scale in favor of upholding state-court
judgments—this is perhaps why Section 2254(d) does
not actually mention the word “deference.” Rather, the
deference owed to state-court decisions—under both
Brecht and AEDPA/Chapman—is baked into the questions that a federal court must ask and answer under
each standard.
What makes both Brecht and
AEDPA/Chapman deferential is that neither allows a
federal habeas court to engage in a de novo Chapman
analysis by simply deciding for itself the same harmlessness question that the state court already decided or
should have decided on direct review.
Instead, AEDPA/Chapman asks whether the state
court either applied a rule contrary to Chapman or applied Chapman but did so in an objectively unreasonable
manner. The standard is deferential because it does not
allow the federal court to discard the state court’s application of Chapman merely because it disagrees with it.
Likewise, Brecht does not charge a federal habeas court

27
with second guessing a state court’s Chapman finding of
harmlessness beyond a reasonable doubt, but instead
tasks it with asking whether the error resulted in actual
prejudice.
The deference baked into these questions protects
state-court decisions from being overturned on habeas
review merely because a federal court disagrees with a
state court’s Chapman decision.
And while the
AEDPA/Chapman inquiry lends state courts significant
leeway in applying Chapman, the question in Brecht is,
as discussed above, in actuality even more deferential.
In a related vein, the State Amici draw on a comparison between AEDPA/Chapman and the sufficiency-ofthe-evidence standard to argue that a finding of actual
prejudice under Brecht does not necessarily mean that a
state-court determination of harmlessness beyond a reasonable doubt is objectively unreasonable. States Amicus Br. 17-20. This reliance is misplaced. Sufficiency review is not “analytically, almost identical to AEDPA review of a Chapman determination.” Id. at 17. Any superficial similarity between the two standards ends, and
the logic of the State Amici’s argument breaks down,
when considering the burdens and presumptions underlying the two inquiries.
Sufficiency review under Jackson v. Virginia, 443
U.S. 307 (1979), requires a reviewing court to uphold a
conviction if “after viewing the evidence in the light
most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime
beyond a reasonable doubt.” Id. at 319. This standard is
doubly deferential—both viewing the evidence in the
light most favorable to the prosecution and asking
whether any rational trier of fact could find the defendant guilty beyond a reasonable doubt. And this makes

28
sense: the nature of a sufficiency challenge is that the
evidence presented at trial was not enough to support a
conviction as a matter of law. A verdict should not be
overturned as long as any rational trier of fact viewing
the evidence in the light most favorable to the prosecution could have found the defendant guilty, without regard to any error at trial.
AEDPA/Chapman is fundamentally different. Unlike sufficiency review, AEDPA/Chapman does not allow a habeas court to consider the facts in the light most
favorable to the prosecution, because Chapman itself
does not allow the state court to do so on direct review.
And unlike sufficiency review, the relevant question under Chapman (and by extension, AEDPA/Chapman) is
not “whether the legally admitted evidence was sufficient to support” the verdict, but rather “whether the
State has proved ‘beyond a reasonable doubt that the error complained of did not contribute to the verdict obtained.’” Satterwhite, 486 U.S. at 258-259 (citing Chapman, 386 U.S. at 24)); see also Sullivan, 508 U.S. at 279.
Chapman (and therefore AEDPA/Chapman) thus
focuses, just as Brecht does, on the effect of the constitutional violation on the verdict that was actually rendered—not, as in sufficiency review, on whether a hypothetical reasonable jury could have reached the same
verdict in the absence of the error. “The [Chapman] inquiry, in other words, is not whether, in a trial that occurred without the error, a guilty verdict would surely
have been rendered, but whether the guilty verdict actually rendered in this trial was surely unattributable to
the error.” Sullivan, 508 at 279. That is why a finding
that there is more than a reasonable possibility that the
error contributed to the verdict (as required under
Brecht) necessarily means it would be objectively unreasonable to find that there was no possibility beyond a

29
reasonable doubt that the error contributed to the verdict (assuming the Brecht finding does not rely on legal
or factual materials prohibited under AEDPA).4
C. Separate, Formal Application Of AEDPA/
Chapman Is Necessary Only Where The Brecht
Analysis Does Not Comply With AEDPA’s Limitations On Factual And Legal Materials
Section 2254(d)(1) limits the legal and factual materials that a federal habeas court may consider in assessing whether a state-court decision was contrary to
or involved an unreasonable application of clearly established federal law. Accordingly, if a federal habeas
court’s finding of actual prejudice under Brecht relied on
materials that are not permitted under Section
2254(d)(1), the court should separately conduct a formal
AEDPA/Chapman inquiry to ensure adherence to Section 2254(d)(1)’s limitations. But where the Brecht analysis did not transgress those limits, there is no need for
a superfluous formal application of AEDPA/Chapman.
For example, if a federal habeas court found actual
prejudice under Brecht by relying on dicta in this Court’s
precedent, lower court precedents, or other authorities
in a way that would be impermissible under Section
4

The State Amici also err in relying on AEDPA cases in which
the underlying standard applied by the state court was itself highly
deferential to the prosecution—a situation significantly different
from that presented by AEDPA/Chapman. For example, the State
Amici mischaracterize Cavazos v. Smith, 565 U.S. 1 (2011) (per curiam), as an example of sufficiency review on direct appeal when in
fact it was a habeas case governed by Section 2254(d). See States
Amicus Br. 18-20; Cavazos, 565 U.S. at 7-8; see also Renico v. Lett,
559 U.S. 766, 778 (2010) (“The Court of Appeal’s ruling in Lett’s favor failed to grant the Michigan courts the dual layers of deference
required by AEDPA and our double jeopardy precedents.”).

30
2254(d)(1), the federal court should then conduct a separate, formal application of AEDPA/Chapman. Similarly, a separate, formal AEDPA/Chapman analysis
would be warranted if the Brecht analysis failed to give
due consideration to the state court’s rationale for finding the error harmless or relied on arguments or evidence not previously presented to the state court, including evidence gathered in a Section 2254(e)(2) evidentiary hearing. In these situations, the federal habeas
court could not rely on its determination that a constitutional violation at trial resulted in actual prejudice to assure itself that the state court’s determination of harmlessness beyond a reasonable doubt was objectively unreasonable within the limitations set out by Section
2254(d)(1).
On the other hand, if the federal habeas court’s
Brecht analysis complied with Section 2254(d)(1)’s rules
for consideration of legal and factual materials then
there is no need for the federal court to embark on a separate formal AEDPA/Chapman analysis. Rather, it can
rest assured that its finding of actual prejudice under
Brecht necessarily means that the state-court determination of harmlessness beyond a reasonable doubt was
an objectively unreasonable application of Chapman under Section 2254(d)(1) and that it adhered to all relevant
limitations in reaching this conclusion.
In most cases, this will be the end of the inquiry and
there will be no need to apply a separate, formal
AEDPA/Chapman analysis. This approach will free
federal habeas courts from having to expend judicial resources to engage in superfluous legal analysis that advances no offsetting interests in comity or finality.
Moreover, this approach would relieve federal courts of
the need to confront complex legal questions under
AEDPA that would not affect the outcome of the case—

31
including, for example, determining whether a statecourt order denying leave to appeal that substitutes its
own reasoned decision in place of the lower court’s constitutes the relevant merits adjudication for AEDPA
purposes, or whether AEDPA deference is owed to an
intermediate court’s decision when its rationale is explicitly rejected by the state supreme court in an opinion
denying leave to appeal.
II. THE COURT OF APPEALS’ ANALYSIS COMPLIED WITH
SECTION 2254(d)(1)’S LIMITATIONS
The court of appeals’ determination that the unconstitutional shackling of Mr. Davenport at trial resulted
in actual prejudice did not rely on materials outside the
scope of those permitted by Section 2254(d)(1), and there
is therefore no need to formally apply a separate
AEDPA/Chapman analysis.
A. The Court Of Appeals Did Not Impermissibly
Rely On Circuit Precedent, Social-Science Research, Or Dicta
The legal principles governing Mr. Davenport’s habeas claim—and the court of appeals’ decision—are
clearly established by this Court’s own holdings. In
Deck, this Court held that “shackling is ‘inherently prejudicial,’” that it “will often have negative effects” that
“‘cannot be shown from a trial transcript,’” and that
“where a court, without adequate justification, orders
the defendant to wear shackles that will be seen by the
jury, … [t]he State must prove ‘beyond a reasonable
doubt that the [shackling] error complained of did not
contribute to the verdict obtained.’” 544 U.S. at 635 (second brackets in original). Thus, the clearly established
law relevant to a Section 2254(d)(1) analysis in this case
is that a shackling error invalidates a conviction unless

32
the State on direct review proves harmlessness beyond
a reasonable doubt under Chapman.
Chapman, in turn, clearly establishes that the harmlessness of an error must be determined based on a review of the trial record considered by the jury. See, e.g.,
Neder v. United States, 527 U.S. 1, 19 (1999) (“Of course,
safeguarding the jury guarantee will often require that
a reviewing court conduct a thorough examination of the
record.”); United States v. Hasting, 461 U.S. 499, 509 n.7
(1983) (“we hold that Chapman mandates consideration
of the entire record prior to reversing a conviction for
constitutional errors that may be harmless”). The court
of appeals applied these clearly established holdings to
conclude that Mr. Davenport’s due process rights were
violated and that he suffered actual prejudice as a result.
The State faults the court of appeals for citing circuit
precedent in determining whether Mr. Davenport established actual prejudice under Brecht, suggesting that it
would have been improper to do so in an AEDPA/Chapman analysis. Pet. Br. 43-44. But the court of appeals
relied on the governing legal principles from Deck as the
clearly established precedent in this case. See Pet. App.
20a-27a; Pet. App. 109a (“as the majority opinion explicitly noted, the Supreme Court’s shackling jurisprudence
was the exclusive basis for its reasoning”).
The mere citation of circuit precedent does not doom
a decision under Section 2254(d)(1). The court of appeals
did not rely on circuit precedents to extend Supreme
Court precedent or turn “a general principle of Supreme
Court jurisprudence into a specific legal rule,” Marshall
v. Rodgers 569 U.S. 58, 64 (2013). Rather, the court of
appeals “look[ed] to circuit precedent to ascertain
whether it ha[d] already held that the particular point in

33
issue is clearly established by Supreme Court precedent[.]” Id.; see Pet. App. 108a.
There is likewise nothing impermissible about a federal habeas court reviewing lower-court decisions to see
how it or its sister courts have previously determined
whether a state court’s application of a Supreme Court
holding is unreasonable. Doing so does not alter the
framework of clearly established federal law that governs a habeas claim, but simply ensures consistency in
the application of that clearly established law. “[T]he
Supreme Court’s shackling jurisprudence was the exclusive basis for [the court of appeals’] reasoning[.]” Pet.
App. 109a.
The State also suggests that the court of appeals impermissibly relied on social-science studies to “discredit”
the jurors’ testimony (at 46-47)—disregarding that the
state supreme court itself also held that excessive reliance on juror testimony was improper. But the court of
appeals relied on this Court’s own determination in
Holbrook, 475 U.S. at 570, that “jurors will not necessarily be fully conscious of the effect” that inherently
prejudicial, visible shackling “will have on their attitude
toward the accused.” Pet. App. 34a (quoting Holbrook,
475 U.S. at 570); see also Pet. App. 35a (“But it was the
Supreme Court in Holbrook that stated the danger of relying on after-the-fact juror conclusions regarding ‘inherently prejudicial’ actions such as shackling because
jurors may not be fully aware of how such effects ‘their
attitude toward the accused.’”). The social-science data
simply confirmed Holbrook’s conclusion. Pet. App. 35a
(“This scientific evidence merely provides further support for the Supreme Court’s determination.”).

34
B. The Court Of Appeals Did Not Ignore The
State Court’s Rationale
The State contends that the court of appeals ignored
the state court’s decision or failed to give it proper “leeway.” Pet. Br. 30. But the court considered at length
the only two justifications for a finding of harmlessness
arguably offered by the state courts (and highlighted by
the State in its brief opposing habeas relief): the juror
testimony and the strength of the evidence of first-degree murder. Pet. App. 34a-38a (addressing testimony
given by the jurors three years after trial that they still
remember that Mr. Davenport was shackled during
trial, leaving them with the impression that he was dangerous); Pet. App. 27a-33a (discussing the “evidence of
guilt” and noting that “the only evidence of premeditation and deliberation the prosecution pointed to in its
closing was the time that strangulation would have
taken” and recognizing that “evidence of manual strangulation alone is not enough to prove premeditation”).
Moreover, the State’s insistence that the court of appeals should have deferred to the state intermediate
court’s rationale—that the juror testimony should be
near-conclusive evidence that the shackling error was
harmless—distorts the very concept of deference. That
rationale was expressly rejected by the state supreme
court. See Pet. App. 93a-94a (admonishing the state intermediate appellate court for failing to recognize that
“the question must be not whether jurors actually articulated a consciousness of some prejudicial effect”). Had
the court of appeals below attached great weight to the
juror testimony, as the State urges, it would have contravened the state supreme court’s decision—the very
opposite of deference.

35
This is not a case in which the court of appeals found
actual prejudice under Brecht by ignoring or giving
short shrift to the rationale underlying the state-court
harmlessness determination. Rather, the court of appeals considered the state court’s reasoning—and all arguments raised by the State—at length.
C. The Court Of Appeals Did Not Rely On Evidence Outside The State-Court Record Or Arguments Not Previously Presented To The
State Court
The court of appeals did not rely on evidence or arguments outside of the state-court record. Indeed, the
State makes no argument otherwise. The State Amici
try but fail to show that the court of appeals relied on
new evidence and arguments.
First, the State Amici claim that Mr. Davenport argued self-defense to the state courts and did not argue
until he sought habeas relief in federal court that “by ‘implying …that court authorities consider[ed] him a danger,’ shackling [Mr.] Davenport could have led the jury
to conclude [Mr.] Davenport committed premeditated violent murder rather than an impulsive one.” States
Amicus Br. 14-15. This argument was not “new.” From
the start, including on direct review in state court, Mr.
Davenport argued that the shackling was prejudicial and
influenced the jury’s consideration of his mens rea. E.g.,
Davenport Br. 22, Michigan v. Davenport, No. 306868
(Mich. Ct. App. filed Mar. 2, 2012), Dkt. No. 12. Indeed,
that was the only argument available to Mr. Davenport:
the nature of the harmlessness inquiry requires the
State to “prove ‘beyond a reasonable doubt that the
[shackling] error complained of did not contribute to the
verdict obtained,’” Deck, 544 U.S. at 635 (citing Chapman, 386 U.S. at 24) (emphasis added), and the verdict

36
here was first-degree murder. Thus, Mr. Davenport
necessarily focused on “the only disputed fact at trial,”
Pet. App. 32a—his state of mind at the time of the offense—and whether the prosecution could prove the
shackling error was harmless beyond a reasonable doubt
given the trial evidence on that issue.
Second, the State Amici fault the court of appeals for
referencing the length of the jury deliberations. States
Amicus Br. 8-9. The court cited the jury’s six-hour deliberation in “further” demonstration of the closeness of
the case. Pet. App. 32a. Contrary to the State Amici’s
suggestion, this Court has previously considered the
length of jury deliberations in assessing prejudice and
granting post-conviction relief, and such consideration
therefore does not violate AEDPA. See Parker v. Gladden, 385 U.S. 363, 365 (1966). In any event, the court of
appeals did not rely on the length of deliberations for its
conclusions but used it only as “further demonstrat[ion]”
of “[t]he closeness of the case.” Pet. App. 32a.
Finally, the State Amici accuse the court of appeals
of applying a presumption of prejudice. States Amicus
Br. 12-13. As Judge Straunch rightly observed, “the majority opinion did not apply a ‘presumption of prejudice,’
… That language is not in the majority opinion.” Pet.
App. 107a. The court merely recognized, in accordance
with this Court’s precedents, that shackling is an “inherently prejudicial practice,” Holbrook, 475 U.S. at 568,
which is why shackling a defendant without adequate
justification violates due process. Pet. App. 21a. The
court then found that Mr. Davenport “is not entitled to
habeas relief simply because he was unconstitutionally
shackled,” id., and went on to assure itself that the requirements of AEDPA and Brecht were satisfied.

37
III. SEPARATE, FORMAL APPLICATION OF AEDPA CONFIRMS THE COURT OF APPEALS’ DETERMINATION
Even if this Court were to determine that a separate, formal application of AEDPA/Chapman is warranted in this case, habeas relief is proper under Section
2254(d)(1) because the state-court harmlessness determination was both contrary to and an unreasonable application of clearly established federal law, as determined by this Court.5
A. The Michigan Supreme Court Decision Was
Contrary To Clearly Established Federal Law
As Determined By This Court
1. The Michigan Supreme Court decision was
contrary to Deck and Chapman
The Michigan Supreme Court, which issued the last
reasoned state-court decision in this case, did not apply
Chapman in evaluating whether Mr. Davenport’s unconstitutional shackling was harmless. The court held:
While the Court of Appeals erroneously failed to
consider defendant’s claim in light of the United
5

The State’s conclusory suggestions (at 5, 47 n.4) that Brecht
might not have been satisfied do not fairly raise this issue, which is
outside the scope of the question presented. See S. Ct. R. 24.1(a).
Moreover, if this Court were to hold that a separate, formal
application of AEDPA is required, a remand to the lower court may
be warranted. Formal application of AEDPA/Chapman raises a
number of legal issues not previously considered or resolved by the
courts below, including whether the Michigan Supreme Court’s order denying review constitutes an adjudication on the merits for
purposes of Section 2254(d)(1) and, if not, whether a federal habeas
court owes deference to an intermediate state-court decision when
that court’s rationale was explicitly rejected by the state supreme
court in a discretionary denial of review.

38
States Supreme Court decision in Holbrook v
Flynn, 475 US 560, 570; 106 S Ct 1340; 89 L Ed
2d 525 (1986) (“the question must be not
whether jurors actually articulated a consciousness of some prejudicial effect, but rather
whether ‘an unacceptable risk is presented of
impermissible factors coming into play’”), the
error was harmless under the facts of this case.
Given the substantial evidence of guilt presented at trial, we cannot conclude that there
was an acceptable risk of impermissible factors
coming into play.
Pet. App. 93a-94a (citing reference omitted). Accordingly, instead of holding the State to its burden of proving harmlessness beyond a reasonable doubt under
Chapman, the Michigan Supreme Court concluded, applying Holbrook, that Mr. Davenport’s visible shackling
was harmless because the court “c[ould not] conclude
that there was an unacceptable risk of impermissible factors coming into play.” Pet. App. 94a.
By imposing a burden on Mr. Davenport to establish
“an unacceptable risk of impermissible factors coming
into play” instead of holding the State to its burden to
prove that the unconstitutional shackling was harmless
beyond a reasonable doubt under Chapman, the Michigan Supreme Court “applie[d] a rule that contradicts the
governing law” that was clearly established by this
Court in Chapman and Deck. See Williams, 529 U.S. at
405. As the State concedes (at 37), Holbrook was not a
harmless-error case at all. It articulated the “unacceptable risk” test not to identify when shackling may be excused as harmless on direct review, but to evaluate
whether courtroom security measures are so inherently
prejudicial as to constitute a constitutional violation in
the first place, which would then be subject to harmless-

39
error review. Holbrook, 475 U.S. at 568. Courtroom
practices that present “an unacceptable risk … of impermissible factors coming into play,” such as shackling, are
“so inherently prejudicial” as to deprive the defendant
of his due process rights. Id. at 570.
Holbrook’s test thus bore no relevance to Mr. Davenport’s entitlement to relief on direct appeal because it
was undisputed by the parties and clearly established
under Deck that Mr. Davenport’s visible shackling was a
violation of his due process rights subject to harmlesserror review. Yet the Michigan Supreme Court relied
on Holbrook’s test to hold that Mr. Davenport’s shackling was harmless. Pet. App. 94a.
Accordingly, even if this Court were to agree with
the State that a federal habeas court cannot grant relief
without formally applying both AEDPA/Chapman and
Brecht, Mr. Davenport would still be entitled to habeas
relief because the last reasoned decision of the state
court contravened clearly established federal law by failing to apply Chapman’s harmlessness analysis. See, e.g.,
Williams, 529 U.S. at 397.
The State suggests two contradictory theories to defend the Michigan Supreme Court’s decision. First, the
State argues that the court was “free to utilize” the
Holbrook test because doing so did not contravene
Chapman’s general standard. Pet. Br. 40. But, as discussed, Holbrook is not a variation on Chapman’s test
for harmless error. Indeed, as the State concedes, “the
Court [in Holbrook] did not employ a harmless-error
analysis,” but “limited its discussion to whether there
was an underlying constitutional violation” at all. Pet.
Br. 37. Even if state courts have leeway under Section
2254(d)(1) in applying general standards established by
this Court, this leeway does not give a state court license

40
to substitute a completely different standard. Doing so
would allow the “unreasonable application” clause to effectively eliminate the “contrary to” clause, in contravention of AEDPA’s plain text.
Second, the State asks this Court to assume that the
Michigan Supreme Court did, implicitly, apply Chapman because, in remanding Mr. Davenport’s case back
to the trial court for an evidentiary hearing, the Michigan Supreme Court articulated the correct Chapman
standard. Pet. Br. 39-40. The state cites no authority
(and Mr. Davenport is aware of none) to support its position that a court’s articulation of a standard more than
two years earlier can satisfy the state court’s obligation
to actually apply that standard in a later appeal.
In any event, an assumption that the state court applied Chapman would be appropriate only if the Michigan Supreme Court’s decision were “‘unaccompanied by
an explanation.’” Harrington, 562 U.S. at 98. Where the
state court does supply an explanation, the federal habeas court “reviews the specific reasons given by the
state court.” Wilson, 138 S. Ct. at 1192. And here, the
Michigan Supreme Court explicitly found that Mr. Davenport’s shackling was harmless under Holbrook’s
standard—a standard that contradicts clearly established law as determined by this Court in Deck and
Chapman.6

6

Even if this Court were to accept the State’s view that the
Michigan Supreme Court somehow applied Chapman through the
Holbrook standard for determining whether there was a constitutional trial violation, its application was unreasonable for the same
reasons discussed below, infra pp. 45-46, relating to the Michigan
Appeals Court opinion.

41
2. The Michigan Supreme Court issued the
last reasoned decision
The State asks this Court to ignore the Michigan Supreme Court order altogether and adjudge the Michigan
intermediate court the last reasoned decision. Pet. Br.
35. The sole basis for this argument is that the Michigan
Supreme Court’s order denied discretionary review rather than granting review and rejecting Mr. Davenport’s claim on the merits. Pet. Br. 35; see Shinn v.
Kayer, 141 S. Ct. 517, 524 n.1 (2020) (per curiam).
The State took the opposite position below and explained precisely why the Michigan Supreme Court
should be considered the last reasoned decision:
The Michigan Supreme Court did begin by saying leave was denied because the court was not
persuaded it should review the question presented. If that had been all the Court said, the
decision would be considered unexplained and
this court would apply a presumption that the
unexplained order rejecting the claim rested
upon the same ground as that set forth by the
Michigan Court of Appeals. However, as previously mentioned, the Michigan Supreme Court
added language to its opinion finding that the
Court of Appeals failed to apply the test from
Holbrook[.] ... The added language by the Michigan Supreme Court should probably be deemed
a reasoned explanation of why [Mr.] Davenport
was denied relief, notwithstanding the initial
statement that the Court was not persuaded it
should review the question presented.
Response to Habeas Pet. 35-37, No. 14-1012 (W.D. Mich.
May 27, 2015), Dkt. 7.

42
The State’s district court position was correct. A denial of an application for leave to appeal may be an adjudication on the merits for purposes of habeas review.
See Shinn, 141 S. Ct. at 524 n.1 (considering state-court
denial of review and noting that “[u]nreasoned dispositions by appellate courts sometimes qualify as adjudications on the merits”); Werth v. Bell, 692 F.3d 486, 493494 (6th Cir. 2012) (holding that “AEDPA deference applies to Michigan orders like the orders in this case”
where “the Michigan appellate courts specified that they
denied [defendant’s] application for reasons involving
the substance of his claims”).
The caselaw cited by the State (at 35), is not to the
contrary. In Greene v. Fisher, 565 U.S. 34 (2011), and
Ylst v. Nunnemaker, 501 U.S. 797 (1991), state appellate
courts summarily denied review without reasoned explanation. Here, unlike in Greene or Ylst, the Michigan
Supreme Court did not deny review on boilerplate
grounds or without explanation, but explicitly considered and rejected the lower court’s analysis and reached
its own independent conclusion on the issue of harmlessness. Pet. App. 93a-94a.
In that respect, the Michigan Supreme Court’s order
in this case stands out among that court’s orders denying
leave to appeal—the vast majority of which are disposed
of by summary order. For example, in 2013—the year of
the decision in this case—the Michigan Supreme Court
denied leave to appeal in 1,217 cases because “it was not
persuaded that the question(s) presented should be reviewed by this Court.” A review of each of these 1,217
decisions reveals that in all but eight, the Michigan Supreme Court denied leave to appeal in a single-line, boilerplate summary order. As one of only eight orders that
year that provided further analysis, the Michigan Supreme Court’s denial of review here, with explanation,

43
was not a run-of-the-mill denial of review but reflected
the deliberate reasoning and consideration that is indicative of an adjudication on the merits. See Wilson, 138
S. Ct. at 1192.
B. The Michigan Court Of Appeals Decision Was
Contrary To And Involved An Unreasonable
Application Of Federal Law As Established By
This Court
Even if the opinion of the Michigan Court of Appeals
were considered the last reasoned state-court decision,
it was also “contrary to, or involved an unreasonable application of, clearly established federal law,” as determined by this Court. 28 U.S.C. § 2254(d)(1).
The Michigan Court of Appeals impermissibly based
its decision on the jurors’ self-assessments that they
were not negatively influenced by seeing Mr. Davenport
in shackles. Pet. App. 97a-100a. That reliance on the jurors’ subjective testimony was contrary to federal law
clearly established in Holbrook and Deck. In Holbrook,
this Court specifically admonished that “little stock need
be placed in jurors’ claims” that they were not prejudiced. 475 U.S. at 570. In doing so, the Court acknowledged the danger of implicit and undetectable bias engendered by errors like unconstitutional shackling, noting that even the jurors themselves may not realize the
effect of such errors on their own deliberation. See id.
(“Even though a practice may be inherently prejudicial,
jurors will not necessarily be fully conscious of the effect
it will have on their attitude toward the accused.”). And,
in Deck, the Court confirmed that shackling in view of
the jury is a violation of due process rights for the very
reason that it “undermines the presumption of innocence,” “almost inevitably affects adversely the jury’s
perception of the character of the defendant,” and

44
“inevitably undermines the jury’s ability to weigh accurately all relevant considerations.” 544 U.S. at 630, 633.
In other words, baked into the very reason that shackling is unconstitutional in the first place is the recognition that it affects jurors in an unconscious manner that
evades detection—even by the jurors themselves.
Indeed, as the State concedes, both the Michigan Supreme Court and the Sixth Circuit recognized the Michigan Court of Appeals’ reliance on juror testimony to be
improper under Holbrook. Pet. App. 93a-94a; see Pet.
Br. 9. The State’s continued insistence to the contrary
ignores Holbrook and disregards the state supreme
court’s own decision, undermining the very interests of
comity and federalism that are central to both
AEDPA/Chapman and Brecht.
The State similarly argues (again in contradiction to
the Michigan Supreme Court’s own analysis), that
Holbrook “did not foreclose the approach taken here by
the” Michigan Court of Appeals because the juror testimony in Holbrook occurred before trial rather than after
trial, and because the Court’s admonition regarding jurors’ testimony in Holbrook does not apply to determining whether the practice was harmless error. Pet. Br.
36-38. Those arguments contradict Holbrook, which
found generally that “[i]f a procedure employed by the
State involves such a probability that prejudice will result that it is deemed inherently lacking in due process”—which visible shackling indisputably does—then
“little stock need be placed in jurors’ claims to the contrary” because “jurors will not necessarily be fully conscious of the effect it will have on their attitude toward
the accused.” 475 U.S. at 568, 570. This observation had
nothing to do with the timing of the juror testimony relative to trial but was a general statement about “inherently prejudicial” practices. Moreover, if a practice is so

45
inherently prejudicial that a juror will not be fully conscious of its effects, and therefore cannot be expected to
articulate those effects for purposes of determining
whether a trial practice is unconstitutional, it follows
that such juror also could not be expected to articulate
those effects for purposes of determining whether a constitutional violation was harmless.
Nor was this Court’s statement about juror testimony mere dicta that can be ignored, as the State suggests. Pet. Br. 38. It is part and parcel of Holbrook’s
holding that a trial judge should, on a case-by-case basis,
evaluate whether a courtroom practice increases the
risk of prejudice by asking whether “an unacceptable
risk is presented of impermissible factors coming into
play,” not whether the jurors actually perceive a prejudicial effect. 475 U.S. at 570.
The Michigan Court of Appeals decision also involved an unreasonable application of federal law clearly
established in Deck and Chapman. Reliance on juror
testimony was an unreasonable application of Deck and
Chapman for the same reasons just discussed. Moreover, the Michigan Court of Appeal failed to consider the
constitutional violation in light of all the evidence presented at trial, as Chapman requires. See, e.g., Hasting,
461 U.S. at 509 n.7. The court addressed the trial evidence only in a cursory two-sentence footnote that did
not even consider whether the evidence supported a
finding of harmlessness beyond a reasonable doubt. Pet.
App. 99a. And it unreasonably focused on a false choice
between first-degree murder and self-defense, ignoring
that the jury could have found that Mr. Davenport
lacked the premeditation and deliberation necessary for
a first-degree murder conviction, even while rejecting
his claim of self-defense. Even if the evidence at trial
“belied” Mr. Davenport’s self-defense theory, Pet. App.

46
99a n.2, this does not necessarily mean that there was
overwhelming evidence of premeditation and deliberation. As the court of appeals below concluded, “[i]n this
case, the amount of time the strangling must have taken
is the only evidence of premeditation and deliberation
the prosecution pointed to in its closing argument[,
which] is not definitive proof of premeditation or deliberation.” Pet. App. 30a (citations omitted) (emphasis
added). Considering Mr. Davenport’s visible and unjustified shackling in light of all the trial evidence and the
State’s heavy burden under Chapman, it was unreasonable to conclude that the State proved the due process
violation harmless beyond a reasonable doubt.
CONCLUSION
The court of appeals’ decision should be affirmed.
Respectfully submitted.
CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

AUGUST 2021

TASHA J. BAHAL
Counsel of Record
REUVEN DASHEVSKY
GARY B. HOWELL-WALTON
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
tasha.bahal@wilmerhale.com

